IN THE SUPREME COURT OF THE UNITED STATES
No. 21-198
ANTHONY W. KNIGHTS,
Petitioner,
v.
UNITED STATES,
Respondent.
Certificate of Word Count
Pursuant to Rule 33.1(h) of the Rules of this Court, I certify that the
accompanying Brief of Amici Curiae Center on Race, Inequality, and the Law;
Charles Hamilton Houston Institute for Race and Justice; Fred T. Korematsu
Center for Law and Equality; Center on Race, Law, and Justice; and Nathaniel R.
Jones Center for Race, Gender, and Social Justice in Support of Petitioner, which
was prepared using Century Schoolbook 12-point typeface, contains 5,935 words,
excluding the parts of the document that are exempted by Rule 33.1(d). This
certificate was prepared in reliance on the word-count function of the wordprocessing system (Microsoft Word) used to prepare the document.
I declare under penalty of perjury that the foregoing is true and correct.
DATED this 30th day of August 2021.
/s/Deborah N. Archer
Deborah N. Archer
Center on Race, Inequality, and the Law
at New York University School of Law
139 MacDougal Street
New York, NY 10012
(212) 998-6882
deborah.archer@nyu.edu

